                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-44A                                  Office of Inspections                               September 2013




                 Special Review of the
          Accountability Review Board Process




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                                 1
Introduction                                                                  3
Background                                                                    5
Accountability Review Board Process                                           6
   Incident Identification                                                    6
   Permanent Coordinating Committee                                           7
   Accountability Review Board                                               13
   Secretary’s Report to Congress                                            16
Implementation of the Benghazi Accountability Review Board Recommendations   19
Repeat Recommendations                                                       32
   Repeat Recommendations from 1998 and 2012 Accountability Review Boards    34
Accountability Review Boards 1998 - 2012                                     38
List of Recommendations                                                      39
List of Informal Recommendations                                             42
Abbreviations                                                                43




                                    iii
                        SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Key Judgments
       •   The Accountability Review Board process operates as intended—independently and
           without bias—to identify vulnerabilities in the Department of State’s security programs.

       •   The Department of State has neither a conceptual framework nor a process for risk
           management. There is no one person or office specifically tasked to oversee the
           assessment of risks in critical, high-threat locales and weigh those risks against the U.S.
           Government’s policy priorities to determine if the strategic value of the program
           outweighs the associated risk.

       •   Follow-through on long-term security program improvements involving physical
           security, training, and intelligence sharing lacks sustained oversight by Department of
           State principals. 1 Over time the implementation of improvements slows and in some
           cases institutional focus shifts, explaining, in part, why a number of Benghazi
           Accountability Review Board recommendations mirror previous Accountability Review
           Board recommendations, further underscoring the need for the involvement of the
           Department of State principals in order to ensure that implementing actions are sustained.

       •   The current system for identifying and classifying serious security incidents does not
           provide the Department of State with the comprehensive information it needs to
           determine which incidents might rise to the level of an Accountability Review Board. As
           a result, the Department of State has missed opportunities to draw lessons from events
           that could improve security programs and enhance security for the entire foreign affairs
           community.

       •   The Department of State is making progress implementing the Benghazi Accountability
           Review Board recommendations. Many of them have worldwide applicability and remain
           to be fully institutionalized.

       •   The implementation of Accountability Review Board recommendations works best when
           the Secretary of State and other Department of State principals take full ownership and
           oversight of the implementation process.

       •   The Benghazi Accountability Review Board proposed the introduction of a new authority
           that would enable future Boards to recommend that the Department of State take
           disciplinary action in cases of unsatisfactory leadership performance related to a security
           incident. The Department of State plans to revise the Foreign Affairs Manual and request
           that Congress amend the applicable statute to incorporate this change.

       •   The Benghazi Accountability Review Board recommended the establishment of two
           review panels: one to examine the organization and management structure of the Bureau
           of Diplomatic Security and the other to advise the Department of State on best practices
           employed by other organizations. The potential benefits of these reviews will only be
           fully realized if they are widely shared and discussed within the Department of State.

1
    Department of State principals are the Secretary, deputy secretaries, and under secretaries.
                                                1
                                   SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

   •   The Department of State has taken steps to fill gaps in information sharing, both domestic
       and overseas. However, important technology issues that would significantly enhance
       information sharing are still in process, with the associated costs still to be determined
       and funded. Moreover, there is currently no established system for ensuring that
       assessments of security at high-threat and other posts benefit from inputs from all
       available diplomatic and intelligence sources.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need correction.

The inspection took place in Washington, DC, between April 15 and August 13, 2013.
[Redacted] (b) (6)
conducted the inspection.




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Introduction
“In 2000, responding to a number of security-related incidents and working to find the right
balance between programs and security in embassies, I directed my staff to begin working with
Congress to authorize within the Department a new Deputy Secretary or Under Secretary
position that would be dedicated to security and associated issues.” – Secretary Madeline
Albright

“This is my report and these are my people.” – Secretary Colin Powell

“My biggest concern was knowing what happened and wanting people to feel that the ARB was
about learning what happened in order to improve processes and procedures. As part of my
regular conversations with the head of DS and others, I made sure that DS was implementing
ARB recommendations. The process worked pretty well for the more routine incidents, but an
event of this magnitude like Benghazi, with White House involvement, the Department’s internal
process isn’t enough.” – Secretary Condoleezza Rice

"My experience reinforced that the Office of the Deputy Secretary for Management and
Resources—where considerations of policy and security converge for the purposes of ensuring
oversight and accountability—should be the locus for driving implementation of significant ARB
recommendations." – Secretary Hillary Clinton

        The Department of State (Department) Office of Inspector General (OIG) undertook a
review of the process by which Accountability Review Boards (ARB/Board) are established,
staffed, supported, and conducted as well as the measures to track implementation of ARB
recommendations. The team reviewed all 12 ARBs between 1998 and 2012 to evaluate the
Department’s compliance followup process, including the methodology used and how well it has
tracked and monitored the implementation of ARB recommendations. The OIG team also
reviewed the Department’s progress regarding implementation of the 29 recommendations issued
in the Benghazi ARB report.

        The ARB process was established by an Act of Congress 2 to serve as a mechanism of the
Secretary of State (Secretary) to help safeguard the employees of the Department and other
personnel assigned to U.S. diplomatic missions abroad. When an incident results in the
convening of an ARB, the ARB investigates what happened and issues recommendations aimed
at preventing future incidents. The OIG team found that the process works best when the
Secretary takes a personal interest in the report and the implementation of recommendations.

        The OIG team interviewed the four secretaries who held office between 1998 and 2012.
All stated that the ARB process was an effective tool that could provide the Department with
important lessons for enhancing the security and safety of U.S. diplomatic facilities and
employees. The interviews revealed that the secretaries had engaged actively in the ARB process
and had taken the ARB and the resulting recommendations with utmost seriousness. Without
exception, the former secretaries voiced strong support for an ARB process that was robust and
independent. When interviewed by the OIG team, the secretaries indicated that they were careful
to ensure that their own actions did not compromise the independence or integrity of the process.
2
    The Omnibus Diplomatic Security and Antiterrorism Act of 1986, as amended.
                                             3
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

The secretaries also indicated that they took personal responsibility for the findings and
recommendations of ARB reports, for overseeing the preparation of their own required reports to
Congress, and for initiating calls to action by the Department to implement recommendations.

        While endorsing the ARB process as an important internal investigative tool for the
Department, two former secretaries raised questions as to whether the process is sufficiently
robust for handling investigations of major, complex incidents, especially those in which the
interests and actions of several agencies were involved. The OIG team deemed this an important
issue but one that was beyond the scope of this review.

        With the exception of the Nairobi/Dar es Salaam and Benghazi ARBs, responsibility for
implementing ARB recommendations was largely delegated to the bureaus and offices most
directly concerned, notably the Bureau of Diplomatic Security (DS). The OIG team was not able
to identify an institutionalized process by which the Secretary or Deputy Secretary engaged
beyond the drafting and submission of the Secretary’s legislated report to Congress. Some
former secretaries and deputy secretaries, in fact, had engaged in conversations with under
secretaries and assistant secretaries on how recommendations should be implemented. The
common expectation, however, was that implementation should be handled by the regular chain
of command in the bureaus directly concerned. With respect to both the Nairobi/Dar es Salaam
and Benghazi reports, initial responsibility for overseeing the implementation process was
assigned to a Department principal, reflecting the magnitude of those events and their policy and
budgetary implications. These cases, however, were exceptions. There has not been a formal
followup process overseen by a Department principal or his/her staff for the implementation of
recommendations. Nor has there been an institutionalized process for ensuring that
recommendations, coupled with lessons learned, are shared effectively and used to contribute to
improved security practices throughout the Department.

        All four former secretaries described the inherent tug of war between risks and rewards as
the Department conducts its business in dangerous places around the world. Typically, the strong
preference among those responsible for advancing U.S. policy objectives is to keep posts open
whenever possible, even in dangerous places, while those officials responsible for security give
priority to the risks and the possibilities for harm. Within the Department, these sometimes-
contradictory positions tend to be represented respectively by the Under Secretary of State for
Political Affairs and the Under Secretary of State for Management. For that reason, two former
secretaries were strongly of the view that responsibility for reconciling these perspectives should
be vested at the deputy secretary level. Indeed, one former Secretary told the OIG team that this
concern was at the heart of the original proposal to create a second deputy secretary position, one
that would have as a principal responsibility overseeing and reconciling these competing
interests of policy and security on a daily basis.




                                       4
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Background
        “The Accountability Review Board (ARB) process is a mechanism to foster more effective
security of U.S. missions and personnel abroad by ensuring a thorough and independent review
of security-related incidents. Through its investigations and recommendations, the Board seeks
to determine accountability and promote and encourage improved security programs and
practices. In addition, the ARB mechanism enhances the integrity of the visa issuing process by
determining accountability in certain instances in which terrorist acts in the United States are
committed by aliens.” 3 - 12 Foreign Affairs Manual 031.1

        In 1985, the Report of the Secretary of State’s Advisory Panel on Overseas Security, also
known as the Inman Report, recommended that the Department establish a procedure to convene
a board of inquiry to review security-related events. The ARB statute was promulgated in
response to this recommendation and requires the Secretary, with some exceptions, to convene
an ARB in any case of serious injury, loss of life, or significant destruction of property, at, or
related to, a U.S. Government mission abroad. 4 The ARB can also review any case of a serious
breach of security involving intelligence activities of a foreign government directed at a U.S.
mission abroad.

        The Permanent Coordinating Committee (PCC) is the body established by the
Department to make recommendations to the Secretary as to whether an ARB should be
convened. In accordance with provisions of the Foreign Affairs Manual (FAM), the PCC is to
convene within 30 days of a security-related incident. The purpose of this delay is to provide
sufficient time for information gathering and deliberation, while still allowing for the convening
of an ARB within the 60-day deadline set by the statute. The PCC comprises representatives
from the Department and the Office of the Director of National Intelligence. Pursuant to a
memorandum of understanding, a representative from the Department of Justice is also invited to
attend. Between 1998 and 2012, the PCC convened 46 times and recommended that the
Secretary convene an ARB 12 times.




3
    To date, there has been no visa incident that required the Department to convene a PCC or ARB.
4
    12 FAM 031.3, ARB Definitions.
                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Accountability Review Board Process
        ARB membership consists of five individuals. The Secretary names four members, and
the Director of National Intelligence names the remaining member. ARBs focus on whether, at
the time of the incident in question, there were sufficient security systems in place and whether
the systems functioned properly. In addition, ARBs determine whether there is reasonable cause
to believe anyone breached their individual duty relevant to the incident. ARB reports to the
Secretary include findings and recommendations. Once an ARB issues its report, a process
begins to implement the recommendations. The Secretary is required to submit a report to
Congress on actions the Department intends to take with respect to ARB recommendations.

        Within the Department, the Office of Management Policy, Rightsizing and Innovation
(M/PRI) oversees the ARB process for the Secretary of State. M/PRI convenes and chairs the
PCC and forwards the committee’s report and recommendation to the Secretary. When an ARB
delivers its report to the Secretary, M/PRI typically drafts the Secretary’s Report to Congress
summarizing the ARB recommendations. M/PRI also tracks compliance with the ARB’s
recommendations.

Incident Identification

         When a security-related incident takes place at a diplomatic facility overseas, M/PRI
initiates the ARB process by identifying the incident and convening the PCC to consider it. The
M/PRI staff identifies incidents by monitoring cable traffic between U.S. missions and regional
bureaus, and receiving reports from the Department’s Operations Center. The M/PRI staff
screens these messages for security-related incidents that meet the threshold for convening a
PCC.

        Currently, the DS Command Center reports all security-related incidents occurring
overseas to the Department, but DS does not routinely provide security reports to M/PRI. DS
provided these reports in the past, but stopped the practice after the rotation of senior staff within
the DS Command Center and subsequent changes in the standard operating procedures. In 2006,
the Under Secretary of State for Management issued a cable 5 directive 6 to all chiefs of mission
requiring posts to report potential ARB incidents directly to M/PRI. Despite this directive, there
currently exists no systematic process assuring immediate notification of security-related
incidents to M/PRI. In January 2013, in an effort to notify more quickly all Department
stakeholders, the Department issued additional guidance 7 directing DS to report all security-
related incidents affecting U.S. missions overseas to the relevant regional bureau, the Bureau of
International Organization Affairs, and the Department’s Operations Center. Unfortunately, DS
did not list M/PRI on the distribution for those cables. As a result, at the time this report was
prepared, M/PRI was not receiving those cables.

         Informal Recommendation 1: The Bureau of Diplomatic Security should include the
         Office of Management Policy, Rightsizing and Innovation as an addressee on all security-
         related incident reports.

5
  Cables are the official internal records of Department policies, program activities, post operations, and personnel
management.
6
  06 State 131130.
7
  13 State 5195.
                                             6
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Permanent Coordinating Committee

         “The Committee will, as quickly as possible after an incident occurs, review the
available facts and recommend to the Secretary to convene or not convene a Board. (Due to the
1999 revision of the law requiring the Secretary to convene a Board not later than 60 days after
the occurrence of an incident, except that such period may be extended for one additional 60-day
period the Committee will meet within 30 days of the incident, if enough information is
available.) In addition, the Committee will meet yearly to review the ARB process, existing
policies and procedures, and ensure that any necessary changes are effected.” - 12 Foreign
Affairs Manual 032.1

        The director of M/PRI chairs the PCC. Additional PCC members are: the DS Assistant
Secretary; the principal deputy assistant secretary for the Bureau of Intelligence and Research; a
senior deputy assistant secretary (or secretaries) from the appropriate regional bureau(s); the
Coordinator for Counterterrorism; a representative of the Office of the Director of National
Intelligence; and the deputy assistant secretary for Visa Services. A September 20, 2001,
memorandum of understanding extends an invitation to a representative from the Department of
Justice to attend PCC meetings. An attorney from the Department’s Office of the Legal Adviser
attends. When warranted, representatives from other agencies, such as the U.S. Agency for
International Development (USAID) and the Department of Agriculture, are also invited.

        The PCC is the Department’s mechanism for initiating the legislated accountability
review process. The PCC’s role is to advise the Secretary on whether an incident meets the
statutory standard for convening an ARB. As stipulated in 12 FAM 32.1 a., the PCC is required
to meet no later than 30 days after a security-related incident. After reviewing all 46 instances of
PCC meetings within the past 14 years, the OIG team found that the PCC usually met the 30-day
deadline.

        When a security-related incident is under review, DS typically takes the lead in
presenting preliminary investigative findings to the committee. PCC members indicated that DS
presentations at PCC meetings are consistently comprehensive and informative; however, during
the presentation of facts, most of the other participants do not routinely offer additional or
amplifying input from their bureaus or agencies nor is there a requirement or expectation that
PCC members will provide information that their bureaus may have regarding an incident. Past
and present PCC members interviewed agreed that an agenda requiring presentations from each
participant would result in a more robust, multi-perspective consideration of an incident. M/PRI
takes the position that such information is already solicited prior to each meeting. The
discrepancy can be eliminated if M/PRI issues clear instructions to PCC members that before
each meeting, they should canvas their bureaus for all information relevant to an incident on the
agenda.

       Informal Recommendation 2: The Office of Management Policy, Rightsizing and
       Innovation should implement a standard operating procedure outlining the role and
       responsibility of the Permanent Coordinating Committee.

       The Secretary is the only person within the Department with legislated authority to
convene an ARB. The PCC meets to decide one question: whether to recommend that the
Secretary convene an ARB. Although not a requirement, the PCC chairperson traditionally
attempts to reach a consensus. On occasion, obtaining consensus has delayed the decision until
                                                7
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

the committee obtained more information. The Secretary has the option not to accept the PCC’s
recommendation, but within the scope of this review, the Secretary always accepted the PCC’s
recommendations. 8

         If the PCC recommends that an ARB should convene, M/PRI forwards a package to the
Secretary with the PCC’s recommendation and any supporting documentation. This action
memorandum anticipates a positive decision by the Secretary and contains an abbreviated
description of the incident, a copy of the PCC minutes, a list of recommended ARB members, a
proposed mandate for the ARB, and a copy of the legislation governing the ARB. It also contains
a letter to the U.S. Attorney General notifying him/her that an ARB will be convened, thus
ensuring that the ARB investigation does not interfere with any concurrent Department of Justice
criminal investigation.

        In instances in which the PCC recommends that an ARB not convene, M/PRI forwards a
memorandum to the Secretary outlining the conclusion of the PCC, the details of the incident,
and the PCC minutes. This process has been inconsistent: sometimes M/PRI forwards an action
memorandum, while in other cases it sends an information memorandum to the Secretary. By
their nature, information memoranda require no action. Sending the PCC findings to the
Secretary in this format presupposes concurrence with the PCC decision. A more consistent
approach is always to send an action memorandum to the Secretary for decision and signature.

Recommendation 1: The Office of Management Policy, Rightsizing and Innovation should
draft an action memorandum for the Secretary’s signature that details the Permanent
Coordinating Committee’s decision regardless if an Accountability Review Board is
recommended. (Action: M/PRI)

        In cases in which the PCC has recommended against an ARB, records indicate that the
PCC often discussed the possibility of alternative reviews of the incident under consideration
that would task a bureau to conduct a study of the incident and write a report. There is no bar to a
PCC recommending an alternative review in those instances in which it does not recommend an
ARB. There are only occasional examples of DS or other bureaus conducting such alternative
reviews. Formalizing this process of in-house reviews would add value to the PCC process by
creating an opportunity to identify lessons learned. Wide distribution of this information would
also help the regional and functional bureaus gain a better understanding of issues relevant to
physical security, training, intelligence sharing, and staffing.

Recommendation 2: The Office of Management Policy, Rightsizing and Innovation should
coordinate with the Permanent Coordinating Committee members to establish guidelines that
broaden the committee’s ability to task alternative reviews. (Action: M/PRI)

Recommendation 3: The Office of Management Policy, Rightsizing and Innovation should
implement a procedure to provide to the Secretary and relevant bureaus a report on the outcome
of alternative reviews in those instances in which the Permanent Coordinating Committee does
not recommend an Accountability Review Board. (Action: M/PRI)



8
  There has only been one instance of a Secretary not accepting the PCC recommendation, in 1992, which is outside
the timeframe of this OIG review.
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Incident Prescreening

        There is no documented process for determining which incidents M/PRI decides to bring
to the attention of the PCC. The director of M/PRI, as the PCC chair, decides whether to convene
the PCC and may consult with relevant offices, such as DS and the Office of the Legal Adviser,
in making that decision.

        In cases where a determination was made that an incident did not justify a PCC, other
PCC members were not routinely informed nor was there a written record of these decisions. For
example, in a February 2008 security-related event, mobs attacked the U.S. embassy in Belgrade
and set it on fire, resulting in significant damage, the death of a demonstrator, an ordered
departure, and closure of the embassy. 9 Because of the prescreening process, no PCC meeting
was convened. Similarly, the OIG team did not find any record of the PCC meeting in reaction to
the damage inflicted on Embassy Tunis on September 12, 2012. That attack resulted in the
destruction of 16 perimeter cameras, more than $150,000 in technical security equipment
damage, and the burning of the American school across the street from the embassy. 10

        Neither the legislation establishing the ARB process, nor the FAM, provide for the
practice of undocumented prescreening of incidents prior to calling a PCC. This practice
contravenes both the letter and the spirit of the legislation and the Department’s written policy on
the role of PCCs, as outlined in 12 FAM 032.1. In effect, it undermines the ability of the PCC to
decide whether to recommend an ARB, as well as the authority of the Secretary to convene an
ARB.

       The OIG team understands that not every incident is appropriate for a PCC, but the ARB
process would benefit from a change in the FAM that includes a standard for a process that is
accountable, transparent, and fully documents a determination that a PCC need not convene. 11

Recommendation 4: The Office of the Under Secretary of State for Management, in
coordination with the Office of the Legal Adviser, should amend 12 FAM 030 to codify a
transparent and fully documented process for vetting security-related incidents to identify those
that do not to warrant convening the Permanent Coordinating Committee and ensuring that this
information is communicated to the Secretary. (Action: M, in coordination with L)

Criteria for Convening an Accountability Review Board

        “A Board convenes, with respect to a security-related incident, only if the following two
determinations are made ... (a) that the incident involved serious injury, loss of life, or
significant destruction of property or a serious breach of security involving intelligence activities
of a foreign government; and (b) that the incident occurred at or related to a U.S. Government
mission abroad….” - 12 Foreign Affairs Manual 033.1 d.(1)

        The Department lacks clear guidelines for the terms “significant destruction of property,”
“serious injury,” or “at or related to a U.S. Government mission abroad” as found in the
legislation. M/PRI could not explain why the PCC considered some incidents worthy of an ARB

9
  Inspection of Embassy Belgrade, Serbia, Report No. ISP-I-10-09A, November 2009.
10
   Diplomatic Security 2012 Year in Review.
11
   In May 2013, M/PRI began to maintain a list of incidents for which PCCs were not called and the reasons why.
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

and not others, which leads to the appearance of inconsistency. At other times, the failure to
convene a PCC left the rationale for the decision open to question.

       Within the 14-year period covered by this review, a significant number of security-related
incidents, more than 222 in all, were not subject to PCC consideration. 12 Many of those incidents
involved injury and numerous instances of property damage to embassies and consulates since
1998, but there are no guidelines for what determining what is “significant” or “serious.”
Moreover, as is illustrated by the following examples, there are inconsistencies in the criteria
used by the PCC to make its recommendations to convene an ARB.

        Security-Related Incident. There is inconsistency in what constitutes a security-related
incident. In June 2002, a suicide bomber detonated a large truck bomb 50 feet from the U.S.
consulate general in Karachi, Pakistan. The blast killed 12 persons, injured more than 50,
including a U.S. Marine, and knocked down a 12-foot section of the facility’s concrete-
reinforced perimeter wall. 13 The PCC recommended against an ARB because the incident
involved “only causes unrelated to security.” Despite concluding that the incident was unrelated
to security, the PCC also called the incident a security success story, as the practices employed at
the U.S. mission precluded loss of life or serious injury to U.S. mission personnel. 14

        Loss of Life. The legislation and the FAM do not distinguish between American and
non-American lives when someone dies in a security-related incident. Within the 1998-2012
scope of this report, the deaths of American citizens have been the focus of 11 out of 12 ARBs.
The exception was an ARB that was called for a 2004 incident in Jeddah when four locally
employed staff members and a contract guard were killed and nine locally employed staff
members were wounded. However, a PCC was not called after the 2012 murder of the embassy’s
senior Foreign Service national investigator in Sana’a, Yemen. He was shot dead by motorcycle
gunmen after they confirmed his identity as an embassy employee. The terrorist group, Al-
Qaeda, in the Arabian Peninsula claimed responsibility for the attack. Despite the fact that the
incident was security-related and resulted in a loss of life, there was neither a PCC nor an ARB.

        Serious Injury. M/PRI and PCC minutes provide different interpretations of serious
injury. M/PRI told the OIG team that the PCC defines “serious” as an injury from which an
individual cannot recover, such as amputation or loss of sight or hearing. However, the minutes
of a September 2004 PCC meeting define serious injury as “nearly fatal.” It is not a stretch to
argue that an injury, such as massive blood loss, would meet the latter definition but not the
former, or that loss of sight or hearing meets the first definition but not the second.

        Significant Property Damage. There have been numerous examples of property damage
to embassies and consulates since 1998, but there are no guidelines for what constitutes
“significant.” For example, in July 2011, demonstrators outside the U.S. embassy in Damascus
threw eggs, rocks, and paint at the embassy compound, smashed ballistic-resistant glass
windows, broke security cameras, and set fire to the embassy’s roof before attacking the chief of
mission residence, where they destroyed two armored vehicles and an unarmored box truck.

12
   “Significant Attacks against U.S. Diplomatic Facilities and Personnel 1998-2012,” U.S. Department of State,
Bureau of Diplomatic Security report.
13
   United States Department of State Significant Attacks Against U.S. Diplomatic Facilities and Personnel 1998-
2012.
14
   M/PRI list of PCC reasons for not convening an ARB.
                                           10
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Despite the property damage, there was neither a PCC nor an ARB. In February 2008,
demonstrators set fire to the U.S. embassy in Belgrade, causing extensive damage and the death
of a demonstrator inside the embassy compound. Without guidelines on what constitutes
“significant,” it is difficult to justify the assertion that no incident has met the PCC or ARB
threshold for significant property damage in the past 14 years.

        At or Related to a U.S. Government Mission Abroad. In September 2004, a bomb
detonated while an attacker was trying to penetrate the consular booth at the U.S. embassy in
Tashkent, killing two Uzbek police officers. The PCC recommended against an ARB because the
incident was unrelated to the mission, no U.S. mission personnel died, and the subject had not
successfully penetrated the consular booth or the embassy grounds. Proximity to the actual
embassy is not always a deciding factor. The PCC determined that the January 2008 Khartoum
roadside murder of a Foreign Service officer and his embassy driver while returning home from
a party met the threshold of a security-related incident and recommended that an ARB convene.

         These examples demonstrate the need to establish basic guidelines to ensure consistency
in PCC deliberations. Several interviewees told the OIG team that DS often takes the position
that there is no reason for a PCC or ARB if the security systems worked as designed, even if
there is loss of non-American life, serious injury, or property damage. The OIG team finds this to
be limiting in that it precludes broader discussion. Even in instances that are determined not to
rise to the level of an ARB, there may be lessons learned from examining these events or security
flaws, even if everything seems to have worked as intended.

Recommendation 5: The Office of the Under Secretary of State for Management, in
coordination with the Office of the Legal Adviser should establish written guidelines for the
Permanent Coordinating Committee regarding criteria for “serious injury,” “significant
destruction of property,” and “at or related to a U.S. mission abroad.” (Action: M, in
coordination with L)

Exclusions from the Accountability Review Board Process

       “The Secretary of State is not required to convene a Board in the case of an incident that
involves any facility, installation or personnel of the Department of Defense with respect to
which the Secretary has delegated operational control of security functions abroad to the
Secretary of Defense pursuant to section 106 of the Act. 15 In any such case, the Secretary of
Defense will conduct an appropriate inquiry and report the findings and recommendations of
such inquiry, and the action taken with respect to such recommendations, to the Secretary of
State and Congress.” - 12 Foreign Affairs Manual 033.1d. (2)

        There are two legislative exclusions when an ARB is not required:

        The first relates to security-related incidents that involve a facility, installation, or
personnel of the Department of Defense for which the Secretary has delegated operational
control of security functions abroad to the Secretary of Defense in accordance with Section 106
of the Omnibus Diplomatic Security Act and Antiterrorism of 1986. 16 In this case, the Secretary

15
   The Omnibus Diplomatic Security and Antiterrorism Act of 1986, as amended. Section 106 of the Act is codified
at 22 U.S.C. 4805.
16
   22 USC 4831(a)(2).
                                           11
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

is not required to convene an ARB and instead relies upon the Secretary of Defense to conduct
an appropriate inquiry and report the findings.

        The Act requires the Secretary of Defense to report an inquiry’s findings and
recommendations to the Secretary and Congress. 17 However, in practice the Department of
Defense does not routinely share the results of its investigations with the Department of State,
despite Department requests that it do so. Apart from being a violation of law, the lack of
information sharing is a disservice to Department personnel who are placed under Department of
Defense protection. Failure to fulfill this reporting requirement also results in missed
opportunities to share interagency lessons learned between the foreign affairs, defense, and
intelligence communities.

       The Department has sent Executive Secretariat (S/ES) memoranda to the Department of
Defense requesting incident reports to no avail. It is incumbent upon the Department to be more
proactive in obtaining the reports of Department of Defense inquiries.

Recommendation 6: The Office of the Under Secretary of State for Management should contact
the Department of Defense counterpart and request that the Department of Defense fulfill its
statutory obligation to provide the Department of State with investigation reports of security-
related incidents that involve Department of State personnel. (Action: M)

        The second exclusion that relieves the Secretary from having to convene an ARB
involves a legislative carve-out for Afghanistan and Iraq. 18 For security-related events occurring
in these two specific locations during the specified time periods, the Secretary is not required to
convene an ARB. The Secretary is required, however, to notify promptly both the House
Committee on Foreign Affairs and the Senate Committee on Foreign Relations and to conduct an
inquiry of an incident that occurs at or is related to a U.S. mission. M/PRI drafts reports of the
findings of these internal inquiries, recommendations, and actions taken, which are submitted to
each Committee through the Bureau of Legislative Affairs. Notwithstanding the carve-out, the
Secretary may still decide to convene an ARB.

Permanent Coordinating Committee Annual Meetings

       “In addition, the Committee will meet yearly to review the ARB process, existing policies
and procedures, and ensure that any necessary changes are effected.” - 12 Foreign Affairs
Manual 032.1a.

        Over the past 3 years, PCC annual meetings were not called as required. There have been
a few attempts to combine meetings involving incidents with routine housekeeping duties of an
annual meeting, but these meetings have not met FAM requirements. Annual meetings are a way
to review ARB processes, existing policies and procedures, and ensure that any necessary
changes are made.

Recommendation 7: The Office of Management Policy, Rightsizing and Innovation should
convene annual meetings of the Permanent Coordinating Committee to specifically review and
assess the committee’s work. (Action: M/PRI)

17
     Id. This statutory reporting requirement is referenced in 12 FAM 033.1 d. (2).
18
     22 U.S.C. 4831(a)(3), originally added in 2005 by P.L. 109-140. Section 3, 119 Stat. 2650 (Dec. 22, 2005).
                                              12
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Accountability Review Board

Accountability Review Board Membership

       “Members must possess expertise that will contribute to the work of the Board, e.g.,
knowledge, experience or training in areas such as foreign affairs, law, security, embassy
construction, intelligence, and other areas appropriate to the Board’s work. In the case of a
Board convened pursuant to a visa incident, at least one Board member must have had extensive
experience as a consular officer and consular manager. Only in exceptional circumstances
should Board members be current employees of the U.S. Government. 19” - 12 Foreign Affairs
Manual 032.2

        Upon recommending to the Secretary that an ARB be convened, M/PRI forwards a list
with the names of five proposed members for the ARB, together with biographic information.
There is no guidance in the FAM as to how this list is to be developed, but there is a requirement
that the PCC update the list annually per 12 FAM 033.2 a.

        It is important to note that the OIG team found no reason to question the selection of
previous ARB members; however, the current system of compiling and maintaining a list is
informal and inconsistent. The list is developed over time based on recommendations from
various sources. Currently, names are drawn from a roster of potential candidates maintained by
M/PRI. Sometimes the Executive Secretariat (S/ES) tasks bureaus and the under secretaries to
provide additional names, while at other times this process is managed solely by M/PRI, with
assistance from the PCC and the Bureau of Human Resources. This roster is not routinely
reviewed by a Department principal.

        The annual review and updating of the roster by the under secretaries and assistant
secretaries would provide a broader range of qualified candidates and improve the diversity of
talent available to serve on ARBs. Tasking under secretaries and assistant secretaries is best done
by S/ES, although M/PRI would continue to manage the list and provide names to the Secretary
should the need arise. S/ES has committed to working with M/PRI to determine the best timing
and procedure to manage and update the ARB candidate list.

Recommendation 8: The Executive Secretariat, in coordination with the Office of Management
Policy, Rightsizing and Innovation, should annually task the under secretaries and assistant
secretaries in the Department of State to provide potential nominees to serve on Accountability
Review Boards. (Action: S/ES, in coordination with M/PRI)

        Several ARBs had repeat members, including the chair. Given the time limitations on the
ARBs, an argument can be made for repeat selections, because those members can bring
experience to the ARB that reduces the time required to complete the task. Moreover, there is no
indication that repeated service by ARB members has harmed the process. However, a number of
senior officials interviewed during the inspection expressed concern that repeated service on
ARBs might compromise the objectivity of the investigative process or give rise to the
appearance of impropriety in the selection process. To avoid that negative appearance, decisions
to put the same person on multiple ARBs must be clearly justified. All lists of candidates


19
     See Section 302(a) of the Act, 22 U.S.C. 4832.
                                              13
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

recommended to the Secretary should include annotations explaining the strengths that each
candidate would bring to the ARB, particularly in the case of repeat members.

        In almost all instances, the selection of ARB members was made based on the
recommendations submitted by M/PRI to the Secretary. In only two instances (Nairobi/Dar es
Salaam and Benghazi) did the names of ARB members actually originate with the secretaries and
their senior advisors. Many of those interviewed by the OIG team felt that the increased
involvement of Department principals in the selection process would ensure that the proposed
ARB membership properly reflects the background and skill sets needed, as well as appropriate
consideration of diversity. Moreover, the Secretary could benefit from having greater choice in
his/her selection of members for the ARB.

Accountability Review Board Staffing

        When the Secretary convenes an ARB, the M/PRI director and staff act as de facto
members of the Secretary’s staff. Their duties are to brief ARB members at the outset on ARB
policies and procedures, serve as the institutional memory and primary point of contact for ARB
matters, and maintain permanent files, rules, procedures, rosters, libraries, etc., for the ARB.
M/PRI coordinates the naming of an executive secretary to the Board who is a current or retired
senior Foreign Service officer recommended by the Bureau of Human Resources, Career
Development and Assignments office. Once launched, the ARB operates independently of
M/PRI.

       ARB members expressed satisfaction with the quality and level of support they received
from the administrative staff assigned to the ARB. There is considerable flexibility in the type
and number of additional experts, consultants, and support staff provided to ARBs, depending
upon the magnitude of the task. Some Boards have had full-time legal advisors; however, the
Office of the Legal Adviser has always been available for consultation to each ARB. Not all
ARBs include a security specialist among its members, yet several former ARB members
reported that the presence of a person with DS experience on the panel helped the ARB navigate
the DS organization. The composition of the ARB, including whether or not to have a DS
member, should not be prescribed but should be made on the merits of the case. However, all
ARBs could benefit from the assignment of a dedicated DS or security professional as a part of
the ARB’s staff, similar to the role of the Office of the Legal Adviser.

Accountability Review Board Impartiality

       ARB members were conscious of the need to protect their impartiality by limiting their
contact with senior managers of the Department during the process. Former members
unanimously told OIG team that they encountered no attempts to impede, influence, or interfere
with their work at any time or on any level.

        None of the 12 ARBs interviewed the Secretary to ascertain her/his role in the events
leading up to the incident under review. ARB members interviewed by the OIG team stated that
after reviewing documentation, they did not find reason to interview the Secretary; rather, the
ARBs focused their inquiries at the operational levels of the Department responsible for
implementing and overseeing security policies and programs. ARB members were unanimous in
saying that they felt empowered to interview anyone, including the Secretary, as the facts or
events warranted.
                                                14
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       All ARB members interviewed by the OIG team reported that they received full
cooperation from interviewees in Washington and at overseas posts. In addition to speaking with
individuals invited by the ARB, the ARBs made themselves available to anyone who volunteered
information regarding security incidents under investigation.

Accountability Review Board Timeline

       “A Board will be given ample time to conduct its investigations and write its report.”- 12
Foreign Affairs Manual 033.3b.

        A careful reading of the statute and the FAM indicates that there is no requirement other
than “ample time” for an ARB to produce a report, but the Secretary’s mandates to the ARBs
have consistently stated, “The ARB shall submit a detailed report to the Secretary of State within
60 days of its first meeting.” Previous ARB members and their executive secretaries emphasized
that they felt they were under considerable pressure to complete their work within 60 days.
However, all former Board members felt that they had sufficient time to complete their reports.

        Once the ARB has delivered its report to the Secretary, its work terminates no later than
30 days thereafter, and it is not obligated to perform any additional duties. The Department is
available to assist ARB members, as appropriate, in the event they need to respond to followup
inquiries regarding the Board’s work. 20

Accountability Review Board Report

        The practice, documented over the past 14 years, has been for the ARB to deliver its
report in person to either the Secretary or one of the Department principals. Records indicate that
in a number of instances the Board briefed the Secretary in person and outlined its
recommendations. When an ARB was unable to brief the Secretary personally, the Board
members said they were left with the impression that the overall effort was not treated with the
weight it deserved.

        It is clear from the legislation and from 12 FAM 036 that the ARB report belongs to the
Secretary. It follows that the Secretary makes the ultimate decision regarding the report’s
distribution. Nonetheless, the fundamental purpose of an ARB is to avert future incidents by
providing all employees of the Department of State—not just those in leadership positions—an
opportunity to learn from these tragic incidents.

        It would be useful if copies of ARB reports and the Secretary’s Report to Congress
received wider circulation within the Department. In practice, copies of the Secretary’s Report
are shared with the Deputy Secretary, all under secretaries, all assistant secretaries, the U.S.
Attorney General, and where appropriate, other agencies like USAID. The reports are rarely
circulated to working-level staff. In the case of the classified Benghazi ARB report, many mid-
level and senior employees expressed frustration that they had not been given access to the entire
report despite being asked to implement its recommendations.



20
  In the case of the Benghazi ARB, the Department continues to work with members of the ARB to assist them in
responding to and preparing for congressional appearances and testimony.
                                          15
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       S/ES is taking steps to formalize the process for determining the proper distribution for
an ARB report and the complementary Secretary’s Report to Congress, subject to the
prerogatives of the Secretary.

       Informal Recommendation 3: The Executive Secretariat should circulate Accountability
       Review Board reports and the Secretary’s subsequent report to Congress more widely
       within the Department of State.

         The Benghazi ARB report does not have the proper paragraph markings, and the
justifications for classifying parts of the report are unclear. In addition, 16 taskers for
implementing the report’s recommendations were classified at a higher level than the original 7
recommendations themselves. Many of the documents submitted in response to the taskers
appear to be overclassified. By overclassifying some taskers, and subsequent responses, the
Department may unnecessarily restrict the distribution of information regarding the actions taken
to implement the ARB recommendations.

       Informal Recommendation 4: The Executive Secretariat should coordinate with the
       Bureau of Diplomatic Security to establish a process to properly classify and paragraph
       mark Accountability Review Board reports and taskers.

Records Management

         The ARB records and files from 1998 to present are inconsistent in the types of
documentation kept for archival purposes, as well as in their disposition. In several cases, ARB
files are incomplete; some contain documentation from the beginning of the process, starting
with the PCC to the ARB report itself, while others do not. Variations in types of documentation
retained in different locations made it challenging for the OIG team to determine what
constituted an official record.

        In addition, interviews with several ARBs and their executive secretaries revealed that
they were not certain about what information was to be kept because the guidance on records
retention was unclear. To ensure that all documentation is preserved for official records, ARBs
need clear guidance on how information and documentation should be handled. This guidance
needs to be included in the briefing book for the ARB and its executive secretary at the
beginning of the process.

        A related issue, which M/PRI is currently addressing, is the management of electronic
records. Currently, the disposition timetable for electronic records stipulates that a record copy is
to be stored and the originals deleted or destroyed after 180 days. ARB records will benefit from
the standard operating procedures that M/PRI is in the process of developing.

Secretary’s Report to Congress

      “Report to Congress: the Secretary will, no later than 90 days after the receipt of a
Board’s program recommendations, submit a report to the Congress on each such
recommendation and the action taken or intended to be taken with respect to that
recommendation.” - 12 Foreign Affairs Manual 036.3a.


                                        16
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The Secretary has a legislated mandate to submit a report to Congress on each
recommendation but is not required to forward to Congress a copy of the ARB report itself. The
Department submitted the ARB reports on the Nairobi/Dar es Salaam and the Benghazi attacks
to Congress in their entirety. Because the recommendations in these reports were so far-reaching
and had such significant resource implications, the Secretary considered it important that the
findings be shared with both houses of Congress. In the other 10 ARB investigations reviewed,
the secretaries’ reports to Congress provided a summary of the key elements of the ARB report,
transmitted the ARB’s recommendations for action, and informed Congress of the Department’s
response to those recommendations. The OIG team’s review of the secretaries’ reports to
Congress over the last 14 years indicated that they accurately conveyed the key elements of the
ARB reports.

         The Department has not always been consistent in deciding to whom the report should be
delivered. For example, the 2003 Amman report was delivered to the Speaker of the House and
the President of the Senate. The 2004 Gaza report was delivered to the Senate Committee on
Foreign Relations, House Foreign Affairs Committee, the Speaker of the House, and the
President of the Senate. The 2005 Jeddah report was delivered only to the House, while the 2008
Khartoum report was delivered to the chairs of the House Foreign Affairs Committee and the
Senate Committee on Foreign Affairs. This process does not guarantee that the report will reach
all of the members of Congress who have an oversight role with regard to the safety and security
of diplomats overseas. The Department lacks a methodology to improve consistency in providing
the Secretary’s Report to Congress, unless circumstances, or the Secretary, require deviation
from the standard list of congressional recipients.

Recommendation 9: The Executive Secretariat, in coordination with the Office of Legislative
Affairs, should create a baseline list of congressional recipients to whom a copy of the
Secretary’s Report to Congress is delivered. (Action: S/ES, in coordination with H)

Implementation

      The implementation process begins with transmission of the Secretary’s Report to
Congress, which includes an outline of the Secretary’s response to the ARB Report and plans to
implement the recommendations.

        Prior to the Benghazi ARB, M/PRI routinely oversaw the implementation process. It
established a working group composed of representatives from the appropriate bureaus within
the Department and, when required, handled liaison with other government agencies such as the
Department of Defense and USAID. The working group ensured that responsibilities for
recommendations were properly assigned, and M/PRI tracked implementation of each
recommendation. In some cases, M/PRI monitored this process for several years to ensure
compliance with the Secretary’s Report. M/PRI performed this task with dedication and
efficiency.

         There is, however, no established process by which a Department principal assumes
formal oversight for the implementation process. For the most part, Department principals who
held office between 2002 and 2012 indicated their expectation that the implementation of ARB
recommendations would be carried out by the operational bureaus concerned. The way that the
Benghazi recommendations are being implemented, with oversight by the Deputy Secretary’s
office, is a desirable practice for future ARB recommendations, which the OIG team believes,
                                                 17
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

should be formalized. A recommendation to this effect is in the section of this report that
discusses the Department’s implementation of the Benghazi ARB recommendations.




                                       18
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Implementation of the Benghazi Accountability Review
Board Recommendations
        “All of us—from senior Department leadership setting strategic priorities to supervisors
evaluating the needs of individual posts to congressional committees appropriating funds and
providing oversight—have a responsibility to provide the men and women who serve this country
with the best possible security and support. Most of all, it is my responsibility as Secretary of
State.” - Secretary Hillary Clinton

         The Department wasted no time addressing the recommendations of the Benghazi ARB.
It enlisted numerous bureaus and offices to assist in developing plans for implementation. It
formed working groups and committees, established panels of experts, and convened special
review boards. Senior Department leadership has been involved through information memos,
action memos, and the chairing of review committees. In seeking to fulfill the ARB
recommendations, the Department issued instructional and guidance cables, made changes to the
FAM and Foreign Affairs Handbook (FAH), and modified position descriptions and
organizational structures.

        The Benghazi ARB recommendations, when implemented, should significantly improve
the Department’s ability to provide better security for U.S. diplomatic missions and employees.
Although nearly half of the recommendations are directed at high-risk, high-threat posts, such as
Benghazi, the recommendations have worldwide applicability. Implementation of some
recommendations has only required reiteration of existing guidance cables or issuance of new
guidance. Other recommendations resulted in the establishment of special review panels, which
in turn offered more recommendations. The more difficult recommendations require researching
and developing new policies and practices, exploring the application of new technologies, and
entering into new or revised agreements with other agencies. A number of Benghazi ARB
recommendations, especially those that require expansion of existing programs or creation of
new programs, require new funding and an assured funding stream. The recommendations
requiring significant funding relate to construction, hiring of additional personnel, expansion of
information technology or other systems, enhanced language training, enhanced security and
other training, and the procurement of new equipment and technologies.

Department Action

        The Department’s handling of the Benghazi ARB recommendations represents a
significant departure from the previous norm in that Secretary Clinton took charge directly of
oversight for the implementation process. She designated the Deputy Secretary for Management
and Resources as the coordinator for implementation with strict guidelines for a reporting
schedule. Initially, the Deputy Secretary held weekly meetings with under secretaries and
assistant secretaries to track implementation. Implementation continues, albeit on a less regular
schedule now that many of the recommendations have been addressed.

       This high-level oversight of the Benghazi ARB implementation process has been
sustained through the transition from Secretary Clinton to Secretary Kerry. This level of attention
from both secretaries and their senior staffs is a reflection of their personal concern in this matter
and the unique scope of the Benghazi ARB recommendations. Approximately 90 percent of the
recommendations (26 of 29) in the Benghazi report focused on systemic management reforms.
                                                  19
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Most senior officials interviewed by the OIG team have expressed their view that high-level
attention is essential to carrying out the institutional changes recommended in the ARB report.
Furthermore, they say that the gravity of the issues in the ARB report demanded a much more
robust implementation process. A number of Benghazi ARB recommendations mirror previous
ARB recommendations, further underscoring a need for the involvement of Department
principals to ensure that implementing actions are sustained.

       High-level leadership has been critical in driving and sustaining implementation of the
Benghazi ARB recommendations, and this approach establishes a model for how the Department
should handle future ARB recommendations. The Department needs to change the FAM to
formalize the responsibilities of the Deputy Secretary for Management and Resources in
overseeing the implementation process and clarify that M/PRI, in continuing to perform its
coordinating function, will report directly to the Deputy Secretary on matters involving the
implementation of ARB recommendations.

Recommendation 10: The Bureau of Administration should amend 1 FAM 30 to institutionalize
the Deputy Secretary for Management and Resources’ responsibility for oversight of
implementation of the Accountability Review Board recommendations. (Action: A)

Recommendation 11: The Bureau of Diplomatic Security should amend 12 FAM 032 to reflect
the Deputy Secretary for Management and Resources’ oversight responsibility of the Office of
Management Policy, Rightsizing and Innovation for implementation of Accountability Review
Board recommendations. (Action: DS)

       There has been some confusion because of the parallel process established in the
Benghazi case, with bureaus and offices in the Department reporting alternately to the Office of
the Deputy Secretary of State, the Office of the Under Secretary of State for Management, or
M/PRI, sometimes regarding the same tasking, without proper coordination or communication.

       Informal Recommendation 5: The Office of the Deputy Secretary of State should work
       in tandem with the Office of Management Policy, Rightsizing and Innovation to
       streamline the Benghazi Accountability Review Board implementation process.

Implementation Challenges

       As previously noted, the Department attempted to comply with the Benghazi ARB
recommendations by breaking each down into individual actions. The Department divided the 29
recommendations of the Benghazi ARB report and assigned them to offices for followup. DS
was the most heavily tasked bureau, charged with taking the lead on 25 of the 64 tasks, with a
supporting role for 23 others. Additionally, the Office of the Under Secretary of State for
Management and M/PRI have significant roles in the implementation process. Actions on a
number of recommendations continue, with planned implementation of some not due until
December 31, 2013, or later, as requested funding becomes available.

        In some instances, the Benghazi ARB recommendations are worded in a way that leaves
latitude for interpretation. While the Department has taken implementation seriously, some
actions taken do not get to the core of the recommendation’s intent. For example, the
Department’s interpretations of the recommendations and its parsing of them into multiple tasks
do not always align with the ARB’s intent.
                                                 20
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         The classified annex to this report contains a complete assessment of the Department’s
efforts to implement the 29 recommendations of the Benghazi ARB report. The following
sections highlight the most critical challenges in implementing the recommendations of the
Benghazi ARB. Foremost is the interpretation of the ARB’s intent with regard to establishing a
balance between acceptable risk and expected outcomes as it relates to strengthening security for
personnel in high-risk, high-threat posts (ARB Recommendation 1). Other challenging issues
include defining the security role of regional assistant secretaries (ARB Recommendation 3), the
development of minimum security standards for occupancy of temporary facilities (ARB
Recommendation 5), and tripwire guidance (ARB Recommendation 9).

Risks Versus Rewards

ARB Recommendation 1: “The Department must strengthen security for personnel and platforms
beyond traditional reliance on host government security support in high-risk and high-threat
posts like Benghazi. The Department should urgently review the proper balance between
acceptable risk and expected outcomes in high-risk and high-threat areas. While the answer
cannot be to refrain from operating in such environments, the Department must do so on the
basis of having: 1) a defined, attainable and prioritized mission; 2) a clear-eyed assessment of
the risks and costs involved; 3) a commitment of sufficient resources to mitigate these costs and
risks; 4) an explicit acceptance of those costs and risks that cannot be mitigated; and (5)
constant attention to changes in the situation, including when to leave and perform the mission
from a distance. The United States must be self-reliant and enterprising in developing alternate
security platforms, profiles, and staffing footprints to address such realities. Assessment must be
made on a case by case basis and repeated as circumstances change.”

         The Benghazi ARB made the central issue of risk management the subject of its first
recommendation. Among other things, ARB Recommendation 1 tasks the Department with
reviewing the proper balance between acceptable risk and expected outcomes in high-risk, high-
threat posts. The ARB prefaced this recommendation by noting, “…we need to adapt our
approaches to projecting and protecting U.S. presence in high-threat areas, predicated on
ongoing calibration of risks versus rewards and a commitment by the executive and legislative
branches to devote the resources needed to achieve our policy aims and protect our people.” The
ARB further invoked the observation made in the 1999 report of the ARB that reviewed the
bombings of our missions in Nairobi and Dar es Salaam, noting, “Rating the vulnerability of
facilities must include factors relating to the physical security environment, as well as certain
host governmental and cultural realities. These criteria need to be reviewed frequently and all
elements of the intelligence community should play an active role in formulating the list.”

        Implicit in these comments is the recognition that there is currently no mechanism in the
Department that weighs mission against threats and risks on a global basis, and no committee or
board explicitly charged with that responsibility. Nor is there an established process whereby a
senior official of the Department is obliged to acknowledge responsibility for an explicit
acceptance of those costs and risks that cannot be mitigated.

       The Department has responded to ARB Recommendation 1 in several ways.

      First, in her report to Congress, Secretary Clinton indicated that a High Threat Post
Review Board would meet annually to review the U.S. official presence to verify that there is a
                                       21
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

defined and attainable mission. It would then assess the risks and costs involved and the
resources to mitigate the risks, make explicit the costs and risks that cannot be mitigated, and
propose a system for ensuring constant attention to changes in the situation. The report to
Congress also indicated that the Secretary would chair an annual review of the results of the
High Threat Post Review Board, assisted by both deputy secretaries and the under secretaries for
Political Affairs and Management.

     Second, the Department developed three specific taskings aimed at implementing ARB
Recommendation 1:

       •   Task 1 – Establish a mechanism to review presence annually, or as circumstances
           warrant, at high-threat posts, beginning immediately.
       •   Task 2 – Review 18 previous ARB reports and issue an annual report to the Under
           Secretary of State for Management on implementation of all outstanding relevant
           recommendations.
       •   Task 3 – Create a mechanism for determining which posts are included in high-threat
           post designations.

        While the actions required by these taskings would presumably be useful, they do not,
taken individually or together, respond to the core intent of the ARB’s recommendation, which
was reviewing the proper balance between acceptable risk and expected outcomes in high-risk,
high-threat posts. The actions in response to Tasks 1 and 3 begin to address the intent of the
recommendation. In response to Task 3, the Department developed a methodology for
determining which posts it would designate as high-risk, high-threat. This threat/risk
methodology was developed by DS in a collaborative process that involved both regional and
functional bureaus. It draws on information from commonly used DS documents and sources.
Through this process, the Department identified 27 posts to be designated as high-risk, high-
threat. These designations were approved by the Office of the Under Secretary of State for
Political Affairs and the Office of the Under Secretary of State for Management and sent in an
information memo to the Deputy Secretary. While an important first step, in the view of the OIG
team, it does not respond fully to the intent of ARB Recommendation 1.

Vital Presence Validation Process

        In the course of its review, the OIG team learned that the Office of the Under Secretary of
State for Management was developing what it refers to as a “Vital Presence Validation Process.”
The process as described would include a risk assessment analysis that could potentially serve as
a precursor for the annual review board mentioned in the Secretary’s Report to Congress. The
risk assessment analysis could be used in determining whether to continue or cease operations at
high-risk, high-threat locations. Stakeholders in this process would include chiefs of mission,
other concerned agencies, regional bureaus, bureaus under the Office of the Under Secretary of
State for Management, the under secretaries for Political Affairs and Management, deputy
secretaries, and the White House/National Security Staff. As part of this validation process, the
under secretaries for Political Affairs and Management would jointly prepare a memo to the
Secretary for approval or disapproval of recommended courses of action.

       A specific goal of the Vital Presence Validation Process is to “create an institutionalized,
repeatable, transparent, and corporate process to make risk-managed decisions regarding the U.S.
                                       22
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

presence at high-threat locations, including whether to continue or cease operations. This process
must address not only facts, but assumptions and uncertainties, and be understood by all
stakeholders.” This goal, if achieved, would put the Secretary in a position to make reasoned
decisions with regard to the continuation or cessation of operations, wholly or in part, at high-
risk, high-threat locations.

        At the time of this review, the developers of the Vital Presence Validation Process had
prepared a flowchart for the process and a relationship map of inputs and outputs between
initiators and customers. While the Office of the Under Secretary of State for Political Affairs
has participated in meetings about the process, a final product has not been submitted for
approval from the offices of the under secretaries for Political Affairs and Management. The
process as outlined addresses the intent of the ARB recommendation in finding the balance
between acceptable risk and expected outcomes, but, as of the time of the drafting of this report,
the process remained incomplete. Moreover, the relationship of this process to the Secretary’s
original proposal to create a High Threat Post Review Board remained unclear.

        In order to meet the intent of ARB Recommendation 1, it is essential that the Department
move forward with efforts to establish a process that will allow the weighing of policy goals on
the one hand against security risks on the other, based on a thorough understanding of the
security environment in which Department personnel must operate. The Vital Presence
Validation Process has the potential to produce a mechanism for facilitating risk management
decisions. Successful implementation will require equal engagement by both under secretaries
for Political Affairs and Management.

       Informal Recommendation 6: The Office of the Under Secretary of State for Political
       Affairs and the Office of the Under Secretary of State for Management should continue to
       oversee plans to develop the Vital Presence Validation Process, with a view to
       establishing a permanent mechanism for assessing the proper balance between acceptable
       risk and expected outcomes in high-risk, high-threat posts.

Strengthening Security Platforms

        The Benghazi ARB Recommendation 1 also calls for strengthening security for personnel
and platforms beyond reliance on host government-security support in high-risk, high-threat
posts. Security programs at overseas posts are predicated on the level of security support from
host nations; however, the Department has to strengthen or supplement these programs when the
mission cannot rely on host government-security support. The OIG team did not find evidence
that the Department is developing a systematic approach for accomplishing this for the 27 posts
designated high-risk, high-threat posts.

Recommendation 12: The Bureau of Diplomatic Security should implement a plan to
strengthen security beyond reliance on host government-security support at high-risk, high-threat
posts. (Action: DS)




                                       23
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Outside Reviews

ARB Recommendation 2: “The Board recommends that the Department re-examine DS
organization and management, with particular emphasis on span of control for security policy
planning for all overseas U.S. diplomatic facilities. In this context, the recent creation of a new
Diplomatic Security Deputy Assistant Secretary for High Threat Posts could be a positive first
step if integrated into a sound strategy for DS reorganization.”

        The ARB found that the span of control of the deputy assistant secretary for international
programs was too great, with too much responsibility concentrated in one office. It further noted
problems of communication and coordination across the bureau. It therefore recommended that
the Department examine the bureau’s organizational structure. 21 The ARB acknowledged that
the Department’s creation of a new High Threat Post directorate and naming a deputy assistant
secretary to head the new organization within DS was a positive step in that the new directorate
effectively reduces the span of control.

        In response to this recommendation, the Department chartered a panel of outside experts,
chaired by former Undersecretary of State for Management, Grant Green, to review the
organizational structure of DS. The Department’s intent was that the panel’s report (the Grant
Green report) would provide guidance and recommendations to restructure and reorganize DS. In
May 2013, the panel completed its review and delivered its report to the Under Secretary of State
for Management. During the OIG special review, DS reported to the under secretaries for
Political Affairs and Management that it concurred with all but one of the recommendations in
the panel’s report. The Department approved the implementation actions proposed by DS. Given
the implications of these organizational changes for other bureaus, the OIG team believes these
reports should be widely shared within the Department.

ARB Recommendation 4: “The Department should establish a panel of outside independent
experts (military, security, humanitarian) with experience in high risk, high threat areas to
support DS, identify best practices (from other agencies and other countries), and regularly
evaluate U.S. security platforms in high risk, high threat posts.”

        The Department convened such a panel (the Sullivan panel) and its members traveled
during May and June 2013 to eight locations, to glean best practices from various organizations
that have an extensive overseas presence, to include United Nations organizations, corporate
entities, police organizations, and foreign diplomatic entities. The panel also visited a number of
Department facilities overseas identified as high-risk, high-threat. The panel has a
comprehensive work plan and a list of issues and questions that will ensure consistency in data
gathering among the various posts, facilities and entities visited. The panel intends to address the
following issues: overarching security considerations; staffing for high-risk, high-threat posts;
training and awareness; security and fire safety; information collection, analysis, and
dissemination; and personnel accountability. It plans to complete its report and deliver it to the
Department in September 2013.

           Informal Recommendation 7: The Office of the Under Secretary of State for
           Management should widely circulate the results of the Grant Green report and the
           Sullivan panel within the Department for review and comment.
21
     Report of the Accountability Review Board for Benghazi, September 11-12, 2012.
                                             24
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Regional Bureau Shared Responsibility

ARB Recommendation 3: “As the President’s personal representative, the Chief of Mission bears
‘direct and full responsibility for the security of [his or her] mission and all the personnel for
whom [he or she is] responsible,’ and thus for risk management in the country to which he or
she is accredited. In Washington, each regional Assistant Secretary has a corresponding
responsibility to support the Chief of Mission in executing this duty. Regional bureaus should
have augmented support within the bureau on security matters, to include a senior DS officer to
report to the regional Assistant Secretary.”

        The ARB was clear in its recommendation that senior DS officers with regional
responsibilities should report to regional assistant secretaries. In the Board’s view, a contributing
factor to the security events in Benghazi was the lack of a shared responsibility between the
Bureau of Near Eastern Affairs and DS. As a result, decisions on policy and security were
stovepiped. Overseas, chiefs of mission have responsibility for the security of the entire mission
and for all personnel who fall under their authority. However, the security responsibility for
Department personnel and others assigned to missions abroad does not end with the chief of
mission. As the ARB noted, it extends to each regional bureau, with each of the regional
assistant secretaries having a shared security responsibility.

         In response to ARB Recommendation 3, the Department added language outlining this
shared responsibility to the position descriptions of each regional assistant secretary, deputy
assistant secretary, and special envoy. The Department further agreed to a “pilot proposal to
create a regional DS officer position to interface with posts and DS/IP [International Programs
Directorate] or DS/HTP [High Threat Programs Directorate], or develop alternative with same
result. In addition, by memorandum of February 15, 2013, from the regional assistant secretaries
and DS to the Deputy Secretary for Management and Resources, DS will remain responsible for
performance ratings of the regional directors, but during the annual performance review, it will
seek input from the regional bureaus with regard to the performance of the DS regional directors.

        Both these steps are encouraging and when fully implemented will go a considerable way
toward fostering greater communication and coordination between DS and the regional bureaus
on a range of security-related issues. The OIG team believes the Department should explore and
pursue other actions to promote improved coordination and a culture of shared responsibility for
the security of overseas posts and those who staff them. These might include joint training for
both DS agents and other Foreign Service personnel on crisis and risk management.

Tripwires

ARB Recommendation 9: “Tripwires are too often treated only as indicators of threat rather
than an essential trigger mechanism for serious risk management decisions and action. The
Department should revise its guidance to posts on tripwires and require key offices to perform
in-depth status checks of post tripwires and breaches. The crossing of Special Mission
Benghazi’s tripwires in August 2012 did not result in any immediate or significant upgrade in
the post’s security platform, nor did it prompt consideration of whether Special Mission
Benghazi should remain open.”



                                        25
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Tripwires serve as triggers to activate plans and implement actions to protect a mission,
its personnel, the U.S. citizen community, and U.S. national interests. Guidance in 12 FAH-1 H-
751 a. defines tripwires as events that activate, initiate, or set in motion post plans to prevent
harm to the post, its personnel, the U.S. citizen community, or other U.S. national interests.
Tripwires are also defined in 6 FAH-2 H-215.1 a. as an event that, when it occurs, requires an
action be taken.

        In response to this recommendation, the Department issued cables 12 State 127718 and
13 State 2599 directing a post-by-post survey and review of tripwires. A working group
established to review tripwires found that the Department lacked a centralized process to review
tripwires. In response, the Department created a Washington-based Tripwires Committee that
includes representatives from the offices of the under secretaries for Management and Political
Affairs, DS, the Bureau of Intelligence and Research, the Bureau of Consular Affairs, the Bureau
of Public Affairs, and the appropriate regional bureau(s) to ensure that decisionmakers are fully
briefed on operational overseas updates. However, the guidance issued to the field is not clear as
to the committee’s exact mandate and role.

         The actions the Department has taken thus far are partially responsive to the Benghazi
ARB recommendation, in that they direct a post-by-post survey and review of existing tripwires,
but the actions taken and the guidance issued do not fully clarify the tripwire process. The result
is that they further dilute the responsibility and accountability of chiefs of mission for the
security of their posts, and they risk perpetuating the situation described in the Benghazi ARB
report in which tripwires, once tripped, led to no immediate or significant action.

        The guidance does not distinguish between the two distinct parts of the tripwire process.
The first part involves the identification by posts of specific events that should trigger an equally
specific response or change in the post’s security posture. This trigger might include the
imposition of a travel ban or drawdown of nonessential personnel. Once these tripwire plans are
developed in the field, it is imperative that they be reviewed and approved in the Department by
the regional, security, and management bureaus that will inevitably have responsibility for
supporting them. It is here that the new Tripwires Committee can play an essential role, not least
in expediting the review and approval process.

        Once those plans have been approved, they become the blueprint that helps the post
determine what to do when a tripwire is tripped. At that point, the chief of mission and the post
emergency action committee are obligated to initiate the previously agreed courses of action
stipulated in the tripwires plan and to report the circumstances to Washington. It is not to seek or
await further guidance from Washington. It is, of course, the Department’s prerogative to review
the circumstances and the actions that are being taken at post, and the Tripwires Committee
could be convened for that purpose. However, the Department’s guidance must make it clear that
countermanding the previously agreed upon actions requires an explicit decision, and formal
acceptance of responsibility and accountability, by a senior Department official, presumably a
principal. In the absence of clarity with regard to the tripwire process, the concerns identified by
the Benghazi ARB will not have been addressed.

       The OIG team reviewed tripwires for the 27 designated high-risk, high-threat posts and
found that there was no consistency in the tripwire plans. In a few cases, actions to be taken
when a tripwire is tripped were clearly identified; however, in the vast majority of cases,
                                        26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

tripwires were not associated with any specific action beyond the “review” of a plan or the
“consideration” of a course of action. This situation prompted the Benghazi ARB’s pointed
finding and recommendation.

Recommendation 13: The Bureau of Diplomatic Security, in coordination with the regional
bureaus, should on an urgent basis, complete its survey of existing tripwires and their
corresponding action plans, starting with high-risk, high-threat posts. (Action: DS, in
coordination with AF, EAP, EUR, IO, NEA, SCA, WHA)

Recommendation 14: The Office of the Under Secretary of State for Political Affairs, in
coordination with the Office of the Under Secretary of State for Management, should direct that
the newly established Tripwires Committee meet on an urgent basis to review and approve the
tripwires plans for all missions, starting with high-risk, high-threat posts. (Action: P, in
coordination with M)

Recommendation 15: The Office of the Under Secretary of State for Management should issue
new guidance clarifying the process by which tripwires are, in the first instance, developed at
post and approved in Washington and emphasizing that tripwire plans, once duly approved, will
serve as the definitive blueprint for the immediate actions to be taken by posts when a tripwire is
tripped. (Action: M)

Training

        Three ARB recommendations (17, 18, and 19) addressed the need to reexamine training
standards, with a specific focus on high-risk, high-threat posts. These included training for both
DS and other Foreign Service personnel. In response to these recommendations, a DS senior
panel reviewed training courses for its own agents and employees. It revised high-threat training
and chief of mission protective detail training for DS agents and set new and more rigorous
standards for passing these courses. In addition, Foreign Affairs Counter Threat training was
made mandatory for all Department employees posted to high-risk, high-threat posts. Currently,
the course is significantly over capacity, and employees unable to take the course before
deployment have been directed to take an online version of the course.

         The Department’s response to these recommendations continues an already
uncoordinated approach to security and crisis management training. While the Department does
have many security-related training courses, they fall under several different training divisions.
Currently, no office or committee has responsibility for coordinating or integrating these
different offerings. What is missing is a coordinated training approach that combines training in
risk management, crisis management, and emergency planning for both DS special agents and
other Foreign Service personnel. This approach needs to be developed jointly by the Foreign
Service Institute and the Bureau of Diplomatic Security under a single unifying structure. The
lack of coordinated risk management and critical incident training places Department personnel
at risk and leaves them ill-prepared to cope with crises overseas.

Recommendation 16: The Foreign Service Institute, in coordination with the Bureau of
Diplomatic Security, should develop a comprehensive program of security, crisis management,
and risk management training for Department personnel, with an emphasis on those assigned to
or having responsibility for high-risk, high-threat posts. (Action: FSI, in coordination with DS)

                                       27
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Procurement

        Three ARB recommendations (20, 21, and 22) involve establishing new programs or
enhancing existing programs for the procurement and distribution of specialized equipment. In
reviewing the recommendations of previous ARBs, the OIG team determined that Boards often
found the lack of appropriate equipment to be a contributing factor in loss of life or injuries and
damage resulting from security-related incidents. The Department’s approach to these
recommendations has been to establish procurement programs aimed at addressing immediate
concerns and while DS has implemented a focused process to identify, procure, and supply
certain non-lethal deterrent items, the Department lacks a larger coordinated procurement
strategy. Such a system would ensure training for staff and incorporate the need to prioritize and
maintain equipment.

        The Office of the Under Secretary of State for Management, in coordination with the
Bureau of Diplomatic Security, the Bureau of Overseas Buildings Operations, and the Bureau of
Administration, should develop a methodology that allows for rapid identification, procurement,
and sustainment of emergent security and safety-related technology and equipment and assigns
specific responsibility for management of a comprehensive procurement program. (Action: M,
in coordination with DS, OBO, and A)

Minimum Security Standards for Occupancy

ARB Recommendation 5: “The Department should develop minimum security standards for
occupancy of temporary facilities in high-risk and high-threat environments, and seek greater
flexibility for the use of Bureau of Overseas Buildings Operations sources of funding so that they
can be rapidly made available for security upgrades at such facilities.”

         The Benghazi ARB recommended the establishment of minimum security standards for
occupancy of temporary facilities in high-risk, high-threat environments. It stipulated that while
there should be an exceptions process for “facilities of the highest priority,” the bar for granting
such exceptions should be high. The Department’s position is that existing physical standards
apply to all permanent, interim, and temporary diplomatic facilities under chief of mission
authority. Accordingly, the Department issued a cable restating that Overseas Security Policy
Board physical security standards apply to all temporary, interim, and permanent diplomatic
facilities and that all new U.S. Government-constructed embassies or consulate facilities must
conform to the 1999 Secure Embassy Construction and Counterterrorism Act colocation and
setback requirements. The cable reiterated that all requests for waivers, as well as exceptions to
physical security standards must provide compelling justification and appropriate mitigating
factors.

        While the Department has in effect security standards that facilities must meet, whether
they are temporary or permanent, it has not developed those Overseas Security Policy Board
physical security standards specifically for high-risk, high-threat posts. The Department did not
make the distinction that 27 posts rise to a different level of security concern until after the attack
in Benghazi. These posts represent approximately 10 percent of all overseas posts and are
designated as high-threat posts. They received this designation because of the following
concerns:


                                        28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       •   The host government does not possess the capability or willingness to provide
           security support to the U.S. diplomatic mission;
       •   The facility structure had physical security vulnerabilities; and
       •   There are known and perceived threats against U.S. interests.

The esteemed members of the Benghazi ARB, no doubt, are quite familiar with Overseas
Security Policy Board physical security standards and recognize the need for specific security
standards prior to occupying a facility, temporary or otherwise, in high-risk, high-threat
environments.

        The Department’s actions to date do not comply with this recommendation. The
Benghazi ARB specifically tasked the Department to identify minimum security standards for
occupancy in high-risk, high-threat environments. The current Overseas Security Policy Board
standards reflect minimum construction standards for physical security of the facilities
themselves. They do not establish minimum security standards for occupancy or address
requirements beyond construction standards. Nor does the Department’s guidance reflect the
ARB’s intent that the bar for exceptions should be a high one “that must be accompanied by
mitigation plans with identified funding to meet standards or further mitigate risks, timelines,
and benchmarks.” The language underscores the fact that occupying temporary facilities that
require waivers and exceptions to security standards is dangerous, especially considering that the
Department occupies these facilities long before permanent security improvements are
completed.

Recommendation 17: The Office of the Under Secretary of State for Management, in
coordination with the Bureau of Diplomatic Security and the Bureau of Overseas Buildings
Operations, should develop minimum security standards that must be met prior to occupying
facilities located in Department of State-designated high-risk, high-threat environments and
include new minimum security standards of occupancy in the Foreign Affairs Handbook as
appropriate. (Action: M, in coordination with DS and OBO)

Funding

ARB Recommendation 10: “Recalling the recommendations of the Nairobi/Dar es Salaam
Accountability Review Boards, the State Department must work with Congress to restore the
Capital Security Cost Sharing Program at its full capacity as originally envisioned, adjusted for
inflation, of approximately $2.2 billion in fiscal year 2015, including an up to 10-year program
addressing that need, prioritized for construction of new facilities in high-risk and high-threat
areas. It should also work with Congress to expand utilization of Overseas Contingency
Operations funding to respond to emerging security threats and vulnerabilities and operational
requirements in high-risk and high-threat posts like Benghazi and Tripoli.”

        The Department is making progress implementing many of the 29 ARB
recommendations, either with available funds or with funds provided by the Consolidated and
Further Continuing Appropriations Act of 2013. However, successful implementation of all
recommendations will require additional funding. Estimates for additional programs required for
successful completion of the remaining recommendations are still being refined, as Department
entities work through the implementation process.

                                       29
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Congress provided $918 million for Worldwide Security Protection, to remain available
until expended. It provided an additional $1.3 billion for embassy security, construction, and
maintenance, while rescinding $1.1 billion in unobligated balances from FY 2012 Overseas
Contingency Operations funding. The Department had requested transfer authority that it did not
receive from Congress, but this authority has subsequently been incorporated in pending
legislation. If approved, the flexible transfer authority will allow the Department to respond more
rapidly to emergent security threats and vulnerabilities at high-risk, high-threat posts.

Information Sharing

       Five Benghazi ARB recommendations (12, 24, 25, 26, and 27) address shortcomings in
the Department’s ability to review and report information received from overseas missions and
other U.S. Governmental agencies. Of significant note is the need to share critical security
information more widely. In response to these recommendations, the Department is taking steps
to improve information sharing. One example is the requirement to distribute reports from the
field more broadly to increase readership and awareness. The Department is also taking steps to
improve information sharing between the Diplomatic Security Command Center and the
Department’s Operations Center. By exchanging watch officers between the two primary
operation centers, the Department hopes to realize information sharing that is more efficient.

        Access to compartmentalized critical intelligence by regional security officers is another
area that the Department is advancing; however, the many technological and physical space
requirements require long-term commitment by the Department and the identification of
additional funding. In addition, the Department is developing enhanced guidance and criteria for
accurate and timely reporting focused on high-threat posts; however, there is no evidence that
this new guidance is complete and disseminated to posts.

       Informal Recommendation 8: The Bureau of Intelligence and Research should continue
       to formulate enhanced reporting criteria covering high-threat posts and communicate
       those criteria to posts.

        More significantly, there is no established system for ensuring that assessments of
security at high-threat and other posts benefit from inputs from all available diplomatic and
intelligence sources. While DS generates its own threat assessments, these do not always reflect
input from other sources, including from the Bureau of Intelligence and Research and mission
political sections, regarding factors that can affect the overall security environment, such as the
attitudes and capabilities of host governments. Nor is there an established process for obtaining
contributions from other agencies with knowledge of the situation on the ground, including
USAID, the Department of Defense, and the intelligence agencies. The Benghazi ARB noted that
in the run-up to the events of September 11, 2012, relevant information from a variety of sources
was not coordinated or integrated into a shared assessment of the security environment.

        The absence of an established mechanism and process for producing comprehensive
security assessments is a significant deficiency. The OIG team believes that the solution lies in
assigning the responsibility for developing such assessments to a specific office—the Bureau of
Intelligence and Research.



                                       30
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Recommendation 18: The Bureau of Intelligence and Research should assess the security
environments at high-risk, high-threat posts, drawing on information from all available sources,
including the intelligence community, with a view to informing security decisions. (Action: INR)

Personnel Recommendations

       No ARB has ever found “reasonable cause to believe” that a Federal employee or
contractor has “breached a duty of that individual” as defined by the Act. 22

        With respect to Benghazi, the ARB wrote that it “did not find that any individual U.S.
Government employee engaged in misconduct or willfully ignored his or her responsibilities and
therefore, did not find reasonable cause to believe that an individual breached his or her duty so
as to be the subject of a recommendation for disciplinary action.” Further, the ARB found that
“poor performance does not ordinarily constitute a breach of duty that would serve as a basis for
disciplinary action but is instead addressed through the performance management system.”

        The Benghazi ARB expressed its view that if future ARBs find unsatisfactory leadership
performance by senior officials in relation to a security incident under review, that should be a
potential basis for ARBs to recommend discipline. The Board recommended therefore, that the
Department amend the FAM 23 so that future ARBs could recommend discipline based on
unsatisfactory leadership by a senior official in relation to a security incident under review by the
ARB.

       In response to the Benghazi ARB report, the Department has drafted an amendment to
the FAM regulation that is in the process of being promulgated. It has also proposed an
amendment to legislation. These changes will require M/PRI to provide future ARBs with clear
guidance for documenting any recommendation for disciplinary action with regard to the
performance of senior officials.

Recommendation 19: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
prepare clear guidelines for Accountability Review Boards pertaining to the drafting and
handling of recommendations dealing with issues of poor performance of Department of State
personnel. (Action: M/PRI, in coordination with DGHR and L)




22
     22 U.S.C. § 4834(c) from the Omnibus Diplomatic Security and Antiterrorism Act of 1986.
23
     3 FAM 4130
                                             31
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Repeat Recommendations
       “…we believe that there was a collective failure by several administrations and Congress
over the past decade to reduce the vulnerability of U.S. diplomatic missions adequately.” -
Admiral William J. Crowe. 24

       “We must undertake a comprehensive and long-term strategy, including sustained
funding for enhanced security measures; for long-term costs for increased security personnel;
and for a capital building program based on an assessment of requirements to meet the new
range of global terrorist threats.” - Secretary Madeleine Albright. 25

        “As we adapt our diplomacy to 21st century realities, we must remember the lessons of
the past. Board members reviewed the 1999 Nairobi/Dar es Salaam Accountability Review
Boards’ combined report, and were struck by the relevance of several of its recommendations
which have not been fully implemented.” - Report of the Benghazi Accountability Review Board.

        The members of the Benghazi ARB echoed the concern expressed by the Board chair of
the Nairobi/Dar es Salaam ARBs 14 years earlier, when he said that both the Department and
Congress failed to take enough action to reduce the vulnerability of U.S. diplomatic missions
adequately. These concerns focused on the fact that multiple ARBs had identified vulnerabilities
that continued to be inadequately addressed. Between crises, the Department and Congress lost
sight of the urgency for institutional and management reforms with regard to core programs and
the funding required to support those reforms. To that end, the Benghazi ARB report repeated
some of the same recommendations made by 12 previous ARBs.

        M/PRI has diligently monitored actions taken on past recommendations. After fulfilling
the Benghazi ARB’s recommendation to review recommendations from the past ARBs (during
the years covered by this review), M/PRI concluded that the Department has closed 120
recommendations, five are ongoing, and one was not accepted. The Department developed
cables, guidance, and improved security standards in its efforts to implement recommendations;
however, it has not adequately addressed the long-term implementation strategy.

        The OIG team conducted its own review of the 126 recommendations made before
Benghazi during the 14-year span of the review. Common ARB report themes include the need
to construct new embassies to meet current security standards; the need for more and better
training not only for DS employees, but also for embassy staffs globally; the need for additional
DS agents and for a significantly expanded Marine security guard program; and the need to
improve interagency coordination and information sharing. Of the 126 recommendations made in
the 12 ARBs from 1998 to the present, 40 percent of them addressed elements of these core
areas.

       In order for implementation to be effective and for recommendations to be fully closed,
there must also be a followup plan to ensure that posts comply with the guidance they have
received. If posts are unable to meet the intent of the guidance, there needs to be a process for
developing and approving an alternative plan. Meaningful implementation goes far beyond
developing implementation plans and issuing guidance or instructions. The fact that many ARB
24
     Press briefing, January 8, 1999.
25
     Meet the Press, August 9, 1998.
                                               32
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

recommendations have been repeated over the past 14 years points to challenges that the
Department continues to face in giving sustained management attention to the vulnerabilities
already identified. While funding and staffing will always be issues, they cannot serve as excuses
for the failure to put in place management systems that would allow the Department to make the
most of resources at its disposal. A comprehensive assessment of repeat recommendations would
allow the Department to better understand and address why a number of recommendations have
been repeated.

        The current system leaves the Secretary and Department principals uninformed with
regard to the impact of implementation. Furthermore, there is no ability to incorporate a better
understanding about how the Secretary could or should address vulnerabilities and the inherent
balance between risk and policy considerations. In the absence of periodic reporting on the
implementation of ARB recommendations and related difficulties, the Secretary is left unaware
of problems that need to be addressed on a global scale.

Recommendation 20: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Diplomatic Security and the Bureau of Intelligence and
Research, should develop an annual report to the Deputy Secretary outlining implementation of
Accountability Review Board recommendations, with an emphasis on identifying problems, the
way forward, and the impact of the Department of State’s global security program. (Action:
M/PRI, in coordination with DS and INR)

        The table below depicts examples of a number of similar, if not identical,
recommendations found in the both the 1998 Nairobi/Dar es Salaam and the 2012 Benghazi
ARB. At present, no single office is responsible for evaluating whether the implementation of
various ARB recommendations adequately addresses security challenges. Nor is the Department
looking at these recommendations as part of a larger global strategy that matches security goals
to policy goals. Without this critical information, the Secretary and the Department cannot
evaluate whether the issues raised repeatedly by ARBs are being adequately addressed.




                                       33
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Repeat Recommendations from 1998 and 2012 Accountability Review Boards

Nairobi/Dar es Salaam 1998                         Benghazi 2012

The Department of State should radically           The Department should urgently review the
reformulate and revise the "Composite              proper balance between acceptable risk and
Threat List" and, as a part of this effort,        expected outcomes in high-risk and high-threat
should create a category exclusively for           areas. While the answer cannot be to refrain
terrorism with criteria that places more           from operating in such environments, the
weight on transnational terrorism. Rating the      Department must do so on the basis of having: 1)
vulnerability of facilities must include factors   a defined, attainable, and prioritized mission; 2)
relating to the physical security environment,     a clear-eyed assessment of the risk and costs
as well as certain host governmental and           involved; 3) a commitment of sufficient
cultural realities. These criteria need to be      resources to mitigate these costs and risks; 4) an
reviewed frequently and all elements of the        explicit acceptance of those costs and risks that
intelligence community should play an active       cannot be mitigated; and 5) constant attention to
role in formulating the list. The list's name      changes in the situation, including when to leave
should be changed to reflect its dual purpose      and perform the mission from a distance. The
of prioritizing resource allocation and            United States must be self-reliant and
establishing security readiness postures.          enterprising in developing alternate security
                                                   platforms, profiles, and staffing footprints to
The Department of State should define the          address such realities. Assessments must be
role of each of the U.S. embassies abroad for      made on a case-by-case basis and repeated as
the coming decade with a view toward               circumstances change.
exploiting technology more fully, improving
their efficiency, ensuring their security, and
reducing overall cost. The Department
should look specifically at reducing the
number of diplomatic missions by
establishing regional embassies located in
less threatened and vulnerable countries with
Ambassadors accredited to several
governments.




                                        34
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Nairobi/Dar es Salaam 1998                         Benghazi 2012

The Department of State should work within         Recalling the recommendations of the
the Administration and with Congress to            Nairobi/Dar es Salaam ARBs, the State
obtain sufficient funding for capital building     Department must work with Congress to restore
programs and for security operations and           the Capital Security Cost Sharing Program at its
personnel over the coming decade (estimated        full capacity, adjusted for inflation to
at $1.4 billion per year for the next 10 years),   approximately $2.2 billion in fiscal year 2015,
while ensuring that this funding should not        including an up to ten-year program addressing
come at the expense of other critical foreign      that need, prioritized for construction of new
affairs programs and operations. A failure to      facilities in high-risk and high-threat areas. It
do so will jeopardize the security of U.S.         should also work with Congress to expand
personnel abroad and inhibit America's             utilization of Overseas Contingency Operations
ability to protect and promote its interests       funding to respond to emerging security threats
around the world.                                  and vulnerabilities and operational requirements
                                                   in high-risk and high-threat posts.
Nairobi/Dar es Salaam 1998                         Benghazi 2012

When building new chanceries abroad, all           The Nairobi/Dar es Salaam ARBs’ report of
U.S. government agencies, with rare                January 1999 called for collocation of newly
exceptions, should be located in the same          constructed State Department and other
compound.                                          government agencies’ facilities. All State
                                                   Department and other government agencies’
                                                   facilities should be collocated when they are in
                                                   the same metropolitan area, unless a waiver has
                                                   been approved.
Nairobi/Dar es Salaam 1998                         Benghazi 2012

The Department of State should increase the        The Board supports the State Department’s
number of posts with full time Regional            initiative to request additional Marines and
Security Officers, seeking coverage of as          expand the Marine Security Guard (MSG)
many chanceries as possible. The                   Program – as well as corresponding
Department should also work with the               requirements for staffing and funding. The Board
Marine Corps to augment the number of              also recommends that the State Department and
Marine Security Guard Detachments to               DOD identify additional flexible MSG structures
provide coverage to a larger number of U.S.        and request further resources for the Department
diplomatic missions.                               and DOD to provide more capabilities and
                                                   capacities at higher risk posts.

                                                   The Board strongly endorses the Department’s
                                                   request for increased DS personnel for high- and
                                                   critical-threat posts and for additional Mobile
                                                   Security Deployment teams, as well as an
                                                   increase in DS domestic staffing in support of
                                                   such action.



                                        35
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Nairobi/Dar es Salaam 1998                         Benghazi 2012

The Department of State should ensure that         The Department should ensure provision of
all posts have emergency communications            adequate fire safety and security equipment for
equipment, basic excavation tools, medical         safe havens and safe areas in non-Inman/
supplies, emergency documents, next of kin         SECCA2 facilities, as well as high-threat Inman
records, and other safety equipment stored at      facilities.
secure off-site locations in anticipation of
mass destruction of embassy facilities and
heavy U.S. casualties.
Nairobi/Dar es Salaam 1998                         Benghazi 2012

Demarches to all governments with whom             The Department must strengthen security for
we have relations should be made regularly         personnel and platforms beyond traditional
to remind them of their obligation to provide      reliance on host government-security support in
security support for our embassies. For those      high-risk and high-threat posts.
governments whose police forces need
additional training to enable them to provide
more adequate protection, the Department
should provide training under the Anti-
Terrorism Assistance (ATA) program. The
Department should also explore ways to
provide any necessary equipment to host
government to upgrade their ability to
provide adequate protection. Failure by a
host government to honor its obligations
should trigger an immediate review of
whether post should be closed.
Nairobi/Dar es Salaam 1998                         Benghazi 2012

In order to enhance the flow of intelligence       Post 2001, intelligence collection has expanded
that relates to terrorism and security, all such   exponentially, but Benghazi attacks are a stark
intelligence should normally be disseminated       reminder that we cannot over-rely on the
to concerned level of the policy and analytic      certainty or even the likelihood of warning
community; compartmentalization of such            intelligence. Careful attention should be given to
information should be limited to                   factors showing a deteriorating threat situation in
extraordinary situations where there is a clear    general as a basis for improving security posture.
national security need for limited                 Key trends must be quickly identified and used
dissemination.                                     to sharpen risk calculations.




                                        36
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Nairobi/Dar es Salaam 1998                       Benghazi 2012

Given the worldwide threat of transnational      Before opening or re-opening critical threat or
terrorism, which uses a wide range of lethal     high-risk and high-threat posts, the Department
weapons, including vehicle bombs, every          should establish a multi-bureau support cell,
post should be treated as a potential target     residing in the regional bureau. The support cell
and the Department of State’s Physical           should work to expedite the approval and
Security Standards and policies should be        funding for establishing and operating the post,
revised to reflect this new reality.             implementing physical security measures,
                                                 staffing of security and management personnel,
                                                 and providing equipment, continuing as
                                                 condition at the post require.
Nairobi/Dar es Salaam 1998                       Benghazi 2012

First and foremost, the Secretary of State       The Board recommends that the Department re-
should take a personal and active role in        examine DS organization and management, with
carrying out the responsibility of ensuring      a particular emphasis on span of control for
the security of U.S. diplomatic personnel. It    security policy planning for all overseas U.S.
is essential to convey to the entire             diplomatic facilities. In this context, the recent
Department that security is one of the highest   creation of a new Diplomatic Security Deputy
priorities. In the process, the Secretary        Assistant Secretary for High Threat Posts could
should reexamine the present organizational      be a positive first step if integrated into a sound
structure with the objective of clarifying       strategy for DS reorganization.
responsibilities, encouraging better
coordination, and assuring that a single high-   As the President’s personal representative, the
ranking officer is accountable for all           Chief of Mission bears “direct and full
protective security matters and has the          responsibility for the security of [his or her]
authority necessary to coordinate on the         missions and all the personnel for whom [he or
Secretary’s behalf such activities within the    she is] responsible,” and this for risk
Department of State and with all foreign         management in the country to which he or she is
affairs U.S. government agencies.                accredited. In Washington, each regional
                                                 Assistant Secretary has a corresponding
                                                 responsibility to support the Chief of Mission in
                                                 executing this duty. Regional bureaus should
                                                 have augmented support within the bureau on
                                                 security matters, to include a senior DS officer to
                                                 report to the regional Assistant Secretary.




                                       37
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Accountability Review Boards 1998 - 2012
                                                                                                           Date of
         Place of Incident 26                              Summary of Incident
                                                                                                          Incident
                                             Attack on two U.S. embassies resulting in the
Nairobi, Kenya, and Dar es Salaam,           death of 11 U.S. citizens and 40 Foreign
                                                                                                        8/07/1998
Tanzania 27                                  Service nationals; over 100 Kenyan civilians
                                             were also killed.
                                             Attack by gunman resulting in the death of a
Amman, Jordan                                                                                           10/28/2002
                                             USAID employee.
Gaza                                         Death of 3 U.S. contractors.                               10/15/2003
Baghdad, Iraq                                Death of a Department of State employee.                   11/24/2004
Jeddah, Saudi Arabia                         Attack on the U.S. consulate.                              12/06/2004
                                             Rocket attack resulting in the death of 2 U.S.
Baghdad, Iraq                                                                                           1/29/2005
                                             citizens.
                                                                                                        9/07/2005
                                             Attacks on a motorcade resulting in the death
Basrah and Mosul, Iraq                                                                                  and
                                             of 1 U.S. citizen and 7 contractors.
                                                                                                        9/19/2005
                                             Attack on a motorcade resulting in the death
Karachi, Pakistan                            of 1 U.S. citizen and 1 Foreign Service                    3/26/2006
                                             national.
                                             Attack on an official vehicle resulting in the
Khartoum, Sudan                              death of 1 U.S. citizen and 1 Foreign Service              1/01/2008
                                             national.
                                             Attack on 3 Department of Defense
Pakistan                                                                                                02/03/2010
                                             personnel.
                                             Attack on the U.S. Special Mission resulting
Benghazi, Libya                              in the death of 4 U.S. citizens, including the             09/11/2012
                                             Ambassador.




26
   Federal Registry Vol. 63 FR 5887; Vol. 68 FR 3926; Vol. 70 FR 11042; Vol. 70 FR 12264; Vol. 70 FR 28593;
Vol. 70 FR 73059; Vol. 71 FR 30977; Vol. 73 FR 20082; Vol. 75 FR 65395
27
   The two separate attacks resulted in two different ARB reports that are commonly referred to as a singular event.
                                            38
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of Management Policy, Rightsizing and Innovation should
draft an action memorandum for the Secretary’s signature that details the Permanent
Coordinating Committee’s decision regardless if an Accountability Review Board is
recommended. (Action: M/PRI)

Recommendation 2: The Office of Management Policy, Rightsizing and Innovation should
coordinate with the Permanent Coordinating Committee members to establish guidelines that
broaden the committee’s ability to task alternative reviews. (Action: M/PRI)

Recommendation 3: The Office of Management Policy, Rightsizing and Innovation should
implement a procedure to provide to the Secretary and relevant bureaus a report on the outcome
of alternative reviews in those instances in which the Permanent Coordinating Committee does
not recommend an Accountability Review Board. (Action: M/PRI)

Recommendation 4: The Office of the Under Secretary of State for Management, in
coordination with the Office of the Legal Adviser, should amend 12 FAM 030 to codify a
transparent and fully documented process for vetting security-related incidents to identify those
that do not to warrant convening the Permanent Coordinating Committee and ensuring that this
information is communicated to the Secretary. (Action: M, in coordination with L)

Recommendation 5: The Office of the Under Secretary of State for Management, in
coordination with the Office of the Legal Adviser should establish written guidelines for the
Permanent Coordinating Committee regarding criteria for “serious injury,” “significant
destruction of property,” and “at or related to a U.S. mission abroad.” (Action: M, in
coordination with L)

Recommendation 6: The Office of the Under Secretary of State for Management should
contact the Department of Defense counterpart and request that the Department of Defense fulfill
its statutory obligation to provide the Department of State with investigation reports of security-
related incidents that involve Department of State personnel. (Action: M)

Recommendation 7: The Office of Management Policy, Rightsizing and Innovation should
convene annual meetings of the Permanent Coordinating Committee to specifically review and
assess the committee’s work. (Action: M/PRI)

Recommendation 8: The Executive Secretariat, in coordination with the Office of
Management Policy, Rightsizing and Innovation, should annually task the under secretaries and
assistant secretaries in the Department of State to provide potential nominees to serve on
Accountability Review Boards. (Action: S/ES, in coordination with M/PRI)

Recommendation 9: The Executive Secretariat, in coordination with the Office of Legislative
Affairs, should create a baseline list of congressional recipients to whom a copy of the
Secretary’s Report to Congress is delivered. (Action: S/ES, in coordination with H)

Recommendation 10: The Bureau of Administration should amend 1 FAM 30 to
institutionalize the Deputy Secretary for Management and Resources’ responsibility for oversight
of implementation of the Accountability Review Board recommendations. (Action: A)
                                               39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Diplomatic Security should amend 12 FAM 032 to
reflect the Deputy Secretary for Management and Resources’ oversight responsibility of the
Office of Management Policy, Rightsizing and Innovation for implementation of Accountability
Review Board recommendations. (Action: DS)

Recommendation 12: The Bureau of Diplomatic Security should implement a plan to
strengthen security beyond reliance on host government-security support at high-risk, high-threat
posts. (Action: DS)

Recommendation 13: The Bureau of Diplomatic Security, in coordination with the regional
bureaus, should on an urgent basis, complete its survey of existing tripwires and their
corresponding action plans, starting with high-risk, high-threat posts. (Action: DS, in
coordination with AF, EAP, EUR, IO, NEA, SCA, WHA)

Recommendation 14: The Office of the Under Secretary of State for Political Affairs, in
coordination with the Office of the Under Secretary of State for Management, should direct that
the newly established Tripwires Committee meet on an urgent basis to review and approve the
tripwires plans for all missions, starting with high-risk, high-threat posts. (Action: P, in
coordination with M)

Recommendation 15: The Office of the Under Secretary of State for Management should
issue new guidance clarifying the process by which tripwires are, in the first instance, developed
at post and approved in Washington and emphasizing that tripwire plans, once duly approved,
will serve as the definitive blueprint for the immediate actions to be taken by posts when a
tripwire is tripped. (Action: M)

Recommendation 16: The Foreign Service Institute, in coordination with the Bureau of
Diplomatic Security, should develop a comprehensive program of security, crisis management,
and risk management training for Department personnel, with an emphasis on those assigned to
or having responsibility for high-risk, high-threat posts. (Action: FSI, in coordination with DS)

Recommendation 17: The Office of the Under Secretary of State for Management, in
coordination with the Bureau of Diplomatic Security and the Bureau of Overseas Buildings
Operations, should develop minimum security standards that must be met prior to occupying
facilities located in Department of State-designated high-risk, high-threat environments and
include new minimum security standards of occupancy in the Foreign Affairs Handbook as
appropriate. (Action: M, in coordination with DS and OBO)

Recommendation 18: The Bureau of Intelligence and Research should assess the security
environments at high-risk, high-threat posts, drawing on information from all available sources,
including the intelligence community, with a view to informing security decisions. (Action: INR)

Recommendation 19: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
prepare clear guidelines for Accountability Review Boards pertaining to the drafting and
handling of recommendations dealing with issues of poor performance of Department of State
personnel. (Action: M/PRI, in coordination with DGHR and L)


                                       40
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 20: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Diplomatic Security and the Bureau of Intelligence and
Research, should develop an annual report to the Deputy Secretary outlining implementation of
Accountability Review Board recommendations, with an emphasis on identifying problems, the
way forward, and the impact of the Department of State’s global security program. (Action:
M/PRI, in coordination with DS and INR)




                                      41
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG team compliance process. However, any
subsequent OIG team inspection or on-site compliance review will assess the mission’s progress
in implementing the informal recommendations.

Informal Recommendation 1: The Bureau of Diplomatic Security should include the Office of
Management Policy, Rightsizing and Innovation as an addressee on all security-related incident
reports.

Informal Recommendation 2: The Office of Management Policy, Rightsizing and Innovation
should implement a standard operating procedure outlining the role and responsibility of the
Permanent Coordinating Committee.

Informal Recommendation 3: The Executive Secretariat should circulate Accountability
Review Board reports and the Secretary’s subsequent report to Congress more widely within the
Department of State.

Informal Recommendation 4: The Executive Secretariat should coordinate with the Bureau of
Diplomatic Security to establish a process to properly classify and paragraph mark
Accountability Review Board reports and taskers.

Informal Recommendation 5: The Office of the Deputy Secretary of State should work in
tandem with the Office of Management Policy, Rightsizing and Innovation to streamline the
Benghazi Accountability Review Board implementation process.

Informal Recommendation 6: The Office of the Under Secretary of State for Political Affairs
and the Office of the Under Secretary of State for Management should continue to oversee plans
to develop the Vital Presence Validation Process, with a view to establishing a permanent
mechanism for assessing the proper balance between acceptable risk and expected outcomes in
high-risk, high-threat posts.

Informal Recommendation 7: The Office of the Under Secretary of State for Management
should widely circulate the results of the Grant Green report and the Sullivan panel within the
Department for review and comment.

Informal Recommendation 8: The Bureau of Intelligence and Research should continue to
formulate enhanced reporting criteria covering high-threat posts and communicate those criteria
to posts.




                                       42
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ARB               Accountability Review Board

Department        Department of State

DS                Bureau of Diplomatic Security

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

M/PRI             Office of Management Policy, Rightsizing and Innovation

OIG               Office of Inspector General

PCC               Permanent Coordinating Committee

S/ES              Executive Secretariat

Secretary         Secretary of State

USAID             U.S. Agency for International Development




                             43
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
